Report No. DODIG-2012-047            January 30, 2012





           Independent Auditor's Report on the 

            DoD FY 2011 Detailed Accounting 

              Report of the Funds Obligated 

                for National Drug Control 

                    Program Activities

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500
                                 INSPECTOR GENERAL
	
                              DEPARTMENT OF DEFENSE
	
                              4800 MARK CENTER DRIVE
	
                           ALEXANDRIA, VIRGINIA 22350-1500
	



                                                                          January 30, 2012

MEMORANDUM FOR DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR
                 COUNTERNARCOTICS AND GLOBAL THREATS

SUBJECT: Independent Auditor’s Report on the DoD FY 2011 Detailed Accounting
         Report of the Funds Obligated for National Drug Control Program Activities
         (Report No. DODIG-2012-047)

Public Law 105-277, title VII, “The Office of National Drug Control Policy
Reauthorization Act of 1998” (the Act), October 21, 1999, requires that DoD annually
submit a detailed report (the Report) to the Director, Office of National Drug Control
Policy (ONDCP), accounting for all funds DoD expended for National Drug Control
Program activities during the previous fiscal year. The Act requires that the DoD
Inspector General authenticate the Report before its submission to the ONDCP Director
(section 1704(d), title 21, United States Code).

The “ONDCP Circular: Drug Control Accounting,” May 1, 2007, (the “Drug Control
Accounting” Circular) provides the policies and procedures DoD must use to prepare the
Report and authenticate the DoD funds expended on National Drug Control Program
activities. The “Drug Control Accounting” Circular specifies that the Report must
contain a table of prior-year drug control obligations, listed by functional area, and
include five assertions relating to the obligation data presented in the table.

The Deputy Assistant Secretary of Defense for Counternarcotics and Global Threats
(DASD [CN & GT]) was responsible for the detailed accounting of funds obligated and
expended by DoD for the National Drug Control Program for FY 2011. We have
reviewed the DASD (CN & GT) detailed accounting in accordance with the attestation
standards established by the American Institute of Certified Public Accountants and in
compliance with generally accepted government auditing standards. We performed a
review-level attestation, which is substantially less in scope than an examination done to
express an opinion on the subject matter. Accordingly, we do not express an opinion.

We reviewed four DoD reprogramming actions that allocated $1.52 billion among the
Military Departments, National Guard, and Defense agencies. We reviewed the year-end
obligation report and determined that DASD (CN & GT) allocated the funds to
appropriations and project codes intended for the DoD Counterdrug Program.

In a letter dated December 12, 2011, DASD (CN & GT) provided us the Report, which
we reviewed to determine compliance with the “Drug Control Accounting” Circular. The
detailed accounting indicated that during FY 2011, DoD obligated $1.36 billion to the
Counterdrug Program functional areas. DASD (CN & GT) compiled the Report from
data the Military Departments and other DoD Components submitted.
DASD (CN & GT) initially reprogrammed the funds from the Central Transfer Account
to the DoD Components using project codes. The DoD Components provided year-end
obligation data to DASD (CN & GT) through the DASD CN database, which compiled
the data into one obligation report. In order to present the obligations by functional area
as required by the “Drug Control Accounting” Circular, DASD (CN & GT) applied
percentages to each project code in the consolidated report to compute the amounts
presented in the table of obligations, instead of obtaining the information directly from
the accounting systems.

Based on our review, except for the DASD (CN & GT) use of percentages to calculate
the obligations presented by functional area, nothing came to our attention during the
review that caused us to believe the detailed accounting of funds obligated by DoD on the
National Drug Control Program for FY 2011 is not presented fairly, in all material
respects, in conformity with the “Drug Control Accounting” Circular.




                                              Amy J. Frontz, CPA
                                              Principal Assistant Inspector General
                                               for Auditing




                                             2

                         OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE
                                           2500 DEFENSE PENTAGON
                                          WASHINGTON, D.C. 20301-2500




 SPECIAL OPERATIONSI
LOW-INTENSITY CONFLICT
                                                                                DEC 1 2

       Mr. Jon Rice 

       Associate Director 

       Performance and Budget 

       Office of National Drug Control Policy 

       750 17th Street, NW 

       Room 535 

       Washington, DC 20503 


       Dear Mr. Rice:

             The drug methodology used to calculate obligations by drug control function of Fiscal
       Year 2011 budgetary resources is reasonable and accurate. The obligation table in Tab A
       was generated by the methodology as reflected in Tab B. The obligations are associated
       with a financial plan that properly reflects all changes made during the fiscal year. The
       Countemarcotics Central Transfer Account does not receive Fund Control Notices.

            Performance Reporting will be addressed under separate correspondence. My point
       of contact for this action is                            , e-mail



                                                   William F. Wechsler
                                                   Deputy Assistant Secretary of Defense
                                                   Countemarcotics and Global Threats


      Enclosures:
      As stated

      cc:
      DODIG
                                                               UNCLASSIFIED

                                    Counternarcotics Central Transfer Account Obligations
                                                                       ($ 000)

                                                         FV-ll
   lntelli!!ence: Dom Law Enforcement                      3.067
   Intelli!!ence: Interdiction                            30.239
   Intelli!!ence: International                          145.144
   Interdiction                                          321.325
   International                                         511.220
   Investi!!ative                                         12.676
   Prevention                                            II 7.434
   R&D: Interdiction                                       6.652
   R&D: International                                      1.554
   State and Local Assistance                            207.751
   Treatment                                                   o
   TOTAL                                              1.357.062*
   .. This amount inlcudes a 86% obligation rate for MILPERS and a 98% obligation rate for O&M. Investment appropriations, which are
   multi-year, are currently obligated at 36%.




DRUG RESOURCES PERSONNEL SUMMARY
   Total FTEs                                 1711




                                                                    UNCLASSIFIED
                                                                           1
                                         DRUG METHODOLOGY 


Central Transfer Account

       The Counternarcotics Central Transfer Account (CTA) was established in PBD 678 in November
1989. Under the CTA, funds are appropriated by Congress to a single budget line, not to the Services
baselines. The CTA accounts for all counternarcotics resources for the Department of Defense with the
exception of OPTEMPO and Active Duty MILPERS. Funds are reprogrammed from the CTA to the Services
and Defense Agencies in the year of execution. The CTA allows for greater execution flexibility in the
counternarcotics program with the ability to realign resources to address changes in requirements. The CTA is
essential to respond effectively to the dynamic nature of the drug threat.

       The Office of National Drug Control Policy (ONDCP) reports within the National Drug Control
Strategy the amount of funds appropriated to the counternarcotics CTA. The actual obligations for the
counternarcotics program for a particular fiscal year differ from the amount released to the CTA since some of
the DoD counternarcotics effort is executed with multi-year funding.

       The reprogramming process begins with reprogramming documents (DDI415-3 and DDI 105)
prepared by the Office ofthe Deputy Assistant Secretary of Defense for Counternarcotics & Global Threats
and forwarded to DoD Comptroller. Funds are reprogrammed to the applicable appropriation/budget
activity at the ServicelDefense Agency by project (e.g., Navy's Fleet Support, Tethered Aerostat System,
ROTHR). The internal reprogramming (IR) action requires no congressional notification/approvaL

       The ServiceslDefense Agencies have their own internal accounting systems for tracking
obligations of funds transferred from the Counternarcotics CTA. The following examples provide the
process of how obligations are tracked:
    • The Army Budget Office receives obligation data from the Defense Finance and Accounting System
(DFAS) on a monthly basis and funds are tracked by the DF AS/Standard Army Financial Information
System (STANFINS), and General Funds Enterprise & Business System (GFEBS).
    • The Air Force uses the USAF General Accounting & Finance System (GAFS) and the Commanders
Resources Integration System (CRIS) to track obligations. Both of these systems are utilized for
Counternarcotics obligations and commitments. These systems Interface directly with the DFAS.
    • The Navy uses the Standard Accounting and Reporting System, Field Level (STARSFL) which
provides the means of tracking allocated counternarcotics funds through the life cycle of the appropriation at
the activity/field level. Navy counternarcotics funding is recorded under separate cost centers and sub-cost
centers, with a line of accounting consisting of subhead, project units and cost codes specifically for
counternarcotics obligation tracking.
    • The Army and Air National Guard employs a central accounting service from the DFAS to
consolidate, aggregate, and report on funds as they are committed, obligated, and expended. The Army State
and Federal Program Accounting Codes and the Air Accounting Codes provide funds-tracking mechanisms to
reconcile funding at various levels of reporting and execution.




                                                                                                  TabB
       The Services/Defense Agencies provide quarterly obligation reports by project code to the Office ofthe
Deputy Assistant Secretary of Defense for Countemarcotics & Global Threats (CN&GT). Beginning in FY
2008, the collection of obligation data has been via the DASD CN&GT database and compiled into a single
countemarcotics obligation report. The obligation and expenditure data provided by the ServiceslDefense
Agencies are compared against their total annual countemarcotics funding for each appropriation. At the end
ofthe year, the Services/Defense Agencies provide an end of year data which reflects their actual obligations,
not an estimation.

       The quarterly obligation data collected is by project code, not down to the drug control function. In
order to comply with ONDCP's circular and provide obligation data by function, it was necessary to use
percentages for each project code.
